     71312                      Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices

     may participate in the call in person                   evaluating the adequacy of current                    SW., Washington, DC 20201 on Monday
     with staff by reporting to the Aerospace                practices in programs, services and                   through Friday of each week from 8 a.m.
     Center Office Building, 901 D Street,                   supports for persons with intellectual                to 4:30 p.m.
     SW., Office of Public Affairs Conference                disabilities, and for reviewing legislative           FOR FURTHER INFORMATION CONTACT:
     Room, 7th Floor West, Washington, DC,                   proposals that impact the quality of life             Richard B. Stern, Office of Counsel to
     no later than 2:45 p.m., Daylight Savings               experienced by citizens with                          the Inspector General, (202) 619–0335,
     Time. Please bear in mind that space is                 intellectual disabilities and their                   or Joel Schaer, Office of External Affairs,
     limited.                                                families.                                             (202) 619–0089.
     SUMMARY: Pursuant to Section 10(a) of                     Dated: November 15, 2005.                           SUPPLEMENTARY INFORMATION:
     the Federal Advisory Committee Act as                   Lena Stone,
     amended (5 U.S.C. Appendix 2) notice                                                                          Background
                                                             Program Analyst, President’s Committee for
     is hereby given that the President’s                    People with Intellectual Disabilities.                   Compliance program guidance (CPG)
     Committee for People with Intellectual                                                                        is a major OIG initiative that was
                                                             [FR Doc. 05–23314 Filed 11–25–05; 8:45 am]
     Disabilities will hold its third quarterly                                                                    developed to assist the health care
                                                             BILLING CODE 4184–01–M
     meeting by telephone conference call to                                                                       community in preventing and reducing
     discuss items related to people with                                                                          fraud and abuse in Federal programs. In
     intellectual disabilities. The conference               DEPARTMENT OF HEALTH AND                              the last several years, OIG has
     call will be open to the public to listen,              HUMAN SERVICES                                        developed and issued compliance
     with call-ins limited to the number of                                                                        program guidance directed at the
     telephone lines available. Individuals                  Office of Inspector General                           following segments of the health care
     who plan to call in and need special                                                                          industry: clinical laboratories; hospitals;
     assistance, such as TTY, assistive                      Draft OIG Compliance Program                          home health agencies; third-party
     listening devices, or materials in                      Guidance for Recipients of PHS                        medical billing companies; durable
     alternative format, should inform Ericka                Research Awards                                       medical equipment, prosthetics,
     Alston, Executive Assistant, President’s                                                                      orthotics and supply companies;
                                                             AGENCY: Office of Inspector General
     Committee for People with Intellectual                                                                        Medicare+Choice organizations offering
                                                             (OIG), HHS.
     Disabilities, Telephone—202–619–0634,                                                                         coordinated care plans; hospices;
                                                             ACTION: Notice and comment period.
     Fax—202–205–9519, E-mail:                                                                                     nursing facilities; individual and small
     ealston@acf.hhs.gov, no later than                      SUMMARY:    This Federal Register notice              group physician practices; ambulance
     November 30, 2005. Efforts will be made                 seeks the comments of interested parties              suppliers; and pharmaceutical
     to meet special requests received after                 on draft compliance guidance                          manufacturers. Copies of these CPGs
     that date, but availability of special                  developed by the Office of Inspector                  can be found on the OIG Web site at
     needs accommodations to respond to                      General (OIG) for recipients of                       http://oig.hhs.gov/fraud/
     these requests cannot be guaranteed.                    extramural research awards from the                   complianceguidance.html.
     This notice is being published less than                National Institutes of Health (NIH) and                  Under its governing statute, OIG’s
     15 days prior to the conference call due                other agencies of the U.S. Public Health              oversight responsibility extends to all
     to scheduling problems.                                 Service (PHS). Through this notice, OIG               programs and operations of the
        Agenda: The Committee plans to                       is setting forth its general views on the             Department of Health and Human
     discuss the Social Security                             value and fundamental principles of                   Services (HHS or Department) and,
     Administration’s proposed amendments                    compliance programs for colleges and                  accordingly, OIG promotes compliance
     to the Ticket to Work and Self-                         universities and other recipients of PHS              efforts by all recipients of Department
     Sufficiency Program, the Employer                       awards for biomedical and behavioral                  funds.1 One community of paramount
     Work Incentive Act for Individuals with                 research and the specific elements that               importance to the Department’s public
     Severe Disabilities and an update on the                these award recipients should consider                health efforts is that of colleges,
     Medicaid Commission. The Honorable                      when developing and implementing an                   universities, and other recipients of
     Martin H. Gerry, Deputy Commissioner,                   effective compliance program.                         public funds that conduct biomedical
     Disability and Income Security                          DATES: To assure consideration,                       and behavioral research. These
     Programs, Social Security                               comments must be delivered to the                     institutions may have organizational
     Administration, and John D. Kemp,                       address provided below by no later than               differences from the users of past
     attorney and advocate for people with                   5 p.m. on December 28, 2005.                          compliance guidances, but we believe
     disabilities, will be guest speakers.                                                                         they have the same basic need to
                                                             ADDRESSES: Please mail or deliver
     FOR FURTHER INFORMATION CONTACT:                                                                              promote compliance measures. We
                                                             written comments to the following
     Contact Sally Atwater, Executive                        address: Office of Inspector General,                 understand that research institutions
     Director, President’s Committee for                     Department of Health and Human                        have been developing compliance
     People with Intellectual Disabilities,                  Services, Attention: OIG–1026–CPG,                    programs in increasing numbers.
     Aerospace Center Office Building, Suite                 Room 5246, Cohen Building, 330
     701, 901 D Street, SW., Washington, DC                  Independence Avenue, SW.,
                                                                                                                     1 OIG and the PHS agencies, including NIH, share

     20447, Telephone—(202) 619–0634,                        Washington, DC 20201.
                                                                                                                   responsibility for encouraging compliance by
     Fax—(202) 205–9519, E-mail:                                                                                   recipients of research awards. In distinguishing the
                                                                We do not accept comments by                       roles of the two agencies, we note that NIH is more
     satwater@acf.hhs.gov.                                   facsimile (FAX) transmissions. In                     focused on compliance with administrative,
     SUPPLEMENTARY INFORMATION: The                          commenting, please refer to file code                 scientific, and financial requirements, while OIG is
                                                                                                                   more focused on the avoidance of fraudulent
     PCPID acts in an advisory capacity to                   OIG–1026–CPG. Comments received                       activities. OIG has chosen to publish this guidance,
     the President and the Secretary of                      timely will be available for public                   in close coordination with NIH and other PHS
     Health and Human Services on a broad                    inspection as they are received,                      agencies, as part of a larger initiative that is
     range of topics relating to programs,                   generally beginning approximately 2                   designed in part to assist institutions in avoiding
                                                                                                                   criminal and civil fraud investigations. This
     services and supports for persons with                  weeks after publication of a document,                compliance guidance is consistent with guidance
     intellectual disabilities. The Committee,               in Room 5527 of the Office of Inspector               provided by NIH on its Web site, http://
     by Executive Order, is responsible for                  General at 330 Independence Avenue,                   grants1.nih.gov/grants/oer.htm.



VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00051   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
                                Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices                                                      71313

     Moreover, over the last several years                   evaluate the compliance of an                         into OIG’s guidance, we are publishing
     slightly more than 50 percent of                        institution. Rather, it is merely a set of            this guidance in draft form. We
     recipients of NIH research awards have                  suggestions regarding how institutions                welcome any comments regarding this
     been medical schools, many of which                     may establish internal controls to allow              document from interested parties. OIG
     may already have health care                            the institution to better comply with                 will consider all comments that are
     compliance programs in their affiliated                 rules and standards that apply to PHS                 received within the above-cited
     hospitals.                                              extramural research awards.                           timeframe, incorporate any specific
        As with OIG’s earlier CPGs, the                                                                            recommendations as appropriate, and
                                                             Developing This Draft Compliance
     purpose of this draft guidance is to                                                                          then prepare a final version of the
                                                             Program Guidance
     encourage the use of internal controls to                                                                     guidance for publication in the Federal
     effectively monitor adherence to                          In developing this draft guidance, we               Register The final version of the
     applicable statutes, regulations, and                   have consulted closely with NIH, which                guidance will be available on the OIG
     program requirements. In developing                     dispenses the majority of biomedical                  Web site at http://oig.hhs.gov.
     the guidance, we have focused                           and behavioral research awards within
     specifically on grant compliance and                    HHS, and have coordinated as well as                  Draft OIG Compliance Program
     administration issues, i.e., whether                    with other PHS agencies that have                     Guidance for Recipients of PHS
     recipients of research awards have                      compliance responsibilities for                       Research Awards (November 2005)
     misused program funds under the                         biomedical and behavioral research                    I. Introduction
     statutes, regulations, and other                        awards. The statutes, regulations, and
     requirements governing the use of those                 policies pertaining to NIH and other                     The Office of Inspector General (OIG)
     funds. We believe this focus is                         PHS awards constitute an appropriate                  of the Department of Health and Human
     consistent with OIG’s responsibility for                focus for award recipients who seek to                Services (HHS or Department) is
     the identification of program                           establish an effective compliance                     continuing in its efforts to promote
     overpayments and, in appropriate                        program. We have also consulted with                  voluntary compliance programs for
     situations, the investigation of civil or               the U.S. Department of Justice and with               recipients of Department funding. This
     criminal fraud. However, we believe                     OIGs of other agencies—such as the                    is the first guidance that is designed for
     that the principles set forth in the                    National Science Foundation—that fund                 a segment of the Federal grant
     guidance will also assist institutions in               significant extramural research.                      community and that is not specifically
     developing compliance programs for                        In an effort to receive initial input on            focused on Medicare and Medicaid
                                                             this guidance from the research                       issues.2 However, many recipients of
     their other activities wherein issues of
                                                             community, we published a Federal                     Public Health Service (PHS) research
     program compliance arise.
        This draft guidance for recipients of                Register notice on September 5, 2003,                 awards are familiar with our previous
     PHS research awards contains seven                      (68 FR 52783), ‘‘Solicitation of                      compliance guidances, in part because
     elements that have been widely                          Information and Recommendations for                   among the largest recipients of PHS
     recognized as fundamental to an                         Developing Compliance Program                         research funds are academic medical
     effective compliance program, and an                    Guidance for Recipients of NIH                        centers, which were the focus of one of
     additional element—number 8 below—                      Research Grants.’’ In response to that                our first compliance guidances, to the
                                                             notice, we received a total of 20                     hospital industry, in February 1998.3
     that we believe is especially important
                                                             comments from research institutions,                     As with the earlier guidances, this
     for research institutions. The eight
                                                             associations, and from one individual.                compliance guidance is intended to
     elements include:                                         Although the September 5, 2003,
        1. Implementing written policies and                                                                       assist recipients of PHS biomedical and
                                                             solicitation notice requested
     procedures,                                                                                                   behavioral research awards in
        2. Designating a compliance officer                  information and recommendations for
                                                                                                                   developing and implementing internal
     and compliance committee,                               developing a CPG for recipients of
                                                                                                                   controls and procedures that promote
        3. Conducting effective training and                 research awards only from NIH, we have
                                                                                                                   adherence to applicable statutes,
     education,                                              expanded the scope of the guidance to
                                                                                                                   regulations, and other requirements of
        4. Developing effective lines of                     other biomedical and behavioral
                                                                                                                   PHS programs. This compliance
     communication,                                          research awards from the public health
                                                                                                                   guidance follows closely those earlier
        5. Conducting internal monitoring                    agencies of this Department. In part, we
                                                                                                                   guidances in its format and basic
     and auditing,                                           made this change based on a comment,
                                                                                                                   elements. At the same time, this
        6. Enforcing standards through well-                 received in response to the solicitation,
                                                                                                                   guidance departs from those earlier
     publicized disciplinary guidelines,                     that we avoid inconsistent sets of
                                                                                                                   publications in certain areas to
        7. Responding promptly to detected                   guidance from various agencies. In
                                                                                                                   accommodate the many differences for
     problems and undertaking corrective                     addition to NIH, which awards the
                                                                                                                   recipients of extramural research
     action, and                                             majority of HHS (and Federal) research
                                                                                                                   awards.
        8. Defining roles and responsibilities               awards, other public health agencies
     and assigning oversight responsibility.                 that fund biomedical and behavioral                      2 Although we refer in this guidance to commonly
        As with previously issued guidances,                 research include the Agency for                       used terms such as grant community and grant
     this draft CPG represents OIG’s                         Healthcare Research and Quality, the                  compliance and administration, the guidance is
     suggestions regarding how institutions                  Agency for Toxic Substances and                       intended to apply more broadly to all PHS research
     can establish internal controls to ensure               Disease Registry, the Health Resources                ‘‘awards,’’ which includes cooperative agreements
     adherence to applicable rules and                                                                             and certain contracts that are not governed by
                                                             and Services Administration, the Indian               Federal procurement laws and regulations. For a
     program requirements. The contents of                   Health Service, the Centers for Disease               definition of the term ‘‘awards,’’ see 45 CFR part 74,
     the guidance should not be viewed as                    Control and Prevention, the Substance                 Uniform Administrative Requirements for Awards
     mandatory or as an exclusive discussion                 Abuse and Mental Health Services                      and Subawards to Institutions of Higher Education,
     of the advisable elements of a                                                                                Hospitals, Other Nonprofit Organizations, and
                                                             Administration, and the Food and Drug                 Commercial Organizations,’’ § 74.2 (‘‘Definitions’’).
     compliance program. Moreover, the                       Administration.                                          3 That guidance was recently supplemented. See
     guidance does not establish a set of                      In an effort to ensure that all parties             OIG Supplemental Compliance Program Guidance
     program rules or standards by which to                  have an opportunity to provide input                  for Hospitals, 70 FR 4858 (January 31, 2005).



VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00052   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
     71314                      Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices

        As with hospitals and other health                   criminal or civil fraud. This guidance is             however, that this commitment is
     care companies, an increasing number                    also focused specifically on PHS awards               justified by the benefits of a compliance
     of colleges, universities, and other                    from this Department. We recognize that               program.
     recipients of PHS biomedical and                        institutions may have multiple sources
                                                                                                                   B. Benefits of a Compliance Program
     behavioral research funds have                          of funding and that the term
     developed compliance programs. One                      ‘‘compliance’’ is used more broadly by                   While the decision to implement a
     purpose of this guidance is to assist                   the research community to include areas               compliance program is entirely
     these institutions in evaluating and, as                such as human and animal subject                      voluntary, OIG believes that an effective
     necessary, refining existing compliance                 research, conflicts of interest, research             compliance program provides numerous
     programs.                                               misconduct, and intellectual property                 advantages that will inure to the benefit
        This guidance is not a compliance                    issues. While this guidance is not                    of institutions that choose to establish
     program itself, nor does it establish a set             focused on these other award sources                  one. An effective compliance program
     of cost principles or program                           and these other regulatory areas, the                 addresses the Government’s and
     requirements, which would be beyond                     compliance elements presented by this                 research community’s mutual goals of
     the responsibility of OIG. This guidance                guidance may be useful in connection                  ensuring good stewardship of Federal
     does not establish criteria by which to                 with other sources of funding and with                funds by eliminating erroneous or
     conduct an audit or review of regulatory                regard to other regulatory areas. For                 improper expenditure of Federal
     or program compliance. Rather, it is                    example, appointing a compliance                      research funds, improving
     intended to serve as a set of guidelines                officer and committee, developing a                   administration of grants (both from the
     that recipients of extramural research                  code of conduct, and instituting a                    Federal Government and from private
     awards may consider when developing                     training and education program would                  sources), and demonstrating to
     and implementing a compliance                           contribute to promoting compliance                    employees and the community at large
     program or evaluating an existing one.                  with National Science Foundation                      the institution’s commitment to honest
     For those institutions with an existing                 award requirements, as well as                        and responsible conduct. These goals
     compliance program, this guidance may                   requirements related to research                      may be achieved by:
     serve as a useful comparison against                    misconduct and human subject                             • Identifying and correcting unlawful
     which to measure ongoing efforts.                       research.                                             and unethical behavior at an early stage;
        We recognize that there are recipients                  Institutions may currently have, or be                • Encouraging employees to report
     of biomedical and behavioral research                   considering, separate compliance                      potential problems and allowing for
     awards that may be small institutions or                systems for their various areas of                    appropriate internal inquiry and
     businesses, such as those receiving                     regulated activity. We recognize that                 corrective action;
     funds under the Small Business                          each of these areas may involve distinct                 • Minimizing, through early detection
     Innovation Research (SBIR) program, or                  personnel and present different                       and reporting, any financial loss to the
     that may be larger institutions that                    regulatory frameworks. However,
                                                                                                                   Government and any resulting financial
     receive a relatively small amount of PHS                because the basic elements for a
                                                                                                                   loss to the institution; and
     funding. We anticipate that these                       compliance program are shared among
     institutions share with larger entities the                                                                      • Reducing the possibility of
                                                             these systems, institutions may receive
     same basic concern about establishing                                                                         Government audits or investigations
                                                             management efficiencies by integrating
     effective internal controls to monitor                                                                        regarding unallowable payments or
                                                             their compliance efforts through the
     adherence with Federal program                          elimination of overlapping systems or                 fraud that could have been prevented at
     requirements. However, some of these                    by developing a single compliance                     an early stage.
     institutions may determine that it is not               program covering all compliance areas.                   Institutions may also want to note that
     practicable to establish the same type of               Integrating compliance systems may                    several of the elements of this
     comprehensive compliance program                        also offer collateral benefits. For                   compliance guidance are considered
     that may exist, for example, at an                      example, audits and reviews of one area               ‘‘mitigating factors’’ that must be
     academic research institution associated                of compliance may develop information                 considered as part of a formal
     with a medical school. We encourage                     useful to other areas.                                debarment action by the Department.4
     these institutions to develop a                            OIG also recognizes that a body of                 C. Application of Compliance Program
     compliance program that relies on the                   literature already exists on research                 Guidance
     same eight basic elements of the                        compliance issues, including guidance
     guidance, but that is suited to their own               on establishing a compliance program.                   There is no single ‘‘best’’ compliance
     size and needs.                                         Nonetheless, we believe that providing                program. Institutions may take differing
                                                             OIG CPG consistent with the other                     approaches to how they rely upon
     A. Scope of the Compliance Program                      compliance guidances we have                          internal audits in monitoring
     Guidance                                                published is appropriate. For the                     compliance issues, how they comprise
        Because the responsibilities of OIG                  convenience of the reader, we have                    their compliance committee, and
     are focused on the effective operation of               compiled a bibliography of some of                    whether they include compliance for
     this Department’s programs and the                      these other publications, which is                    research misconduct and human and
     misuse of its funds, the scope of this                  attached to this guidance as Appendix                 animal subject protections as part of a
     voluntary guidance concentrates on                      A.                                                    single compliance program. Some
     issues that fall under the rubric of grant                 Our experience with compliance                     institutions may already have a
     compliance and administration. By this,                 programs is that an institution’s                     compliance program in place; others
     we mean those issues involving the                      implementation of a serious,                          only now may be initiating such efforts.
     application of statutes, regulations, and               meaningful, and effective compliance                    Institutions may also have identified,
     other program requirements that affect                  program may require a significant                     through audits or internal inquiries,
     the ‘‘allowability’’ of costs and whether               commitment of time and resources,                     particular management concerns or
     awardees should be subjected to a                       especially for those institutions that                areas of high risk that may call for
     disallowance action or, in appropriate                  have not developed a compliance
     circumstances, an investigation for                     program in the past. We believe,                        4 See   45 CFR 76.860(l), (n), (p), and (q).



VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00053   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM     28NON1
                                Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices                                                     71315

     developing or refining compliance                       researcher’s workday, the separation                   section J.10, paragraphs b.(2)(a)—(c)).
     elements to address these areas.                        between these areas of activity can                    The accuracy of these activity reports is
        OIG has identified three major                       sometimes be hard to discern, which                    critical for the awarding agency to
     potential risk areas for recipients of NIH              heightens the need to have effective                   understand the amount of research
     research awards: (1) Time and effort                    timekeeping systems.                                   conducted under the award. More
     reporting, (2) properly allocating                         For this reason, institutions need to be            specific guidance is contained in the
     charges to award projects, and (3)                      especially vigilant in accurately                      instructions to PHS Form 398,
     reporting of financial support from other               reporting the percentage of time devoted               Application for a Public Health Service
     sources. These risk areas, although not                 to projects. Accurate time and effort                  Grant,7 available at www.grants.nih.gov/
     exhaustive of all potential risk areas, are             reporting systems are essential to ensure              grants/funding/phs398/phs398.html
     discussed in greater detail in section II               that PHS and other funding sources are                 (‘‘Definitions,’’ definition of
     below.                                                  properly charged for the activities of                 ‘‘Institutional Base Salary’’), and in the
        The compliance measures adopted by                   researchers. The failure to maintain                   NIH Grants Policy Statement, Part I,
     an institution should be tailored to fit                accurate time and effort reporting may                 Definitions, available at http://
     the unique environment of the                           result in overcharges to funding sources               grants1.nih.gov/grants/policy/nihgps
     institution (including its organizational               and, in certain circumstances, could                   (‘‘Glossary,’’ definition of ‘‘Institutional
     structure, operations and resources, as                 subject an institution to civil or criminal            Base Salary,’’ and Selected Items of
     well as prior enforcement experience).                  fraud investigations.                                  Cost, ‘‘Salaries and Wages’’ and ‘‘Payroll
     In short, OIG recommends that each                         We are aware of situations in which                 Distribution’’).
     institution should adapt the objectives                 researchers falsely report the amount of                  Another issue in reporting the
     and principles underlying the measures                  time they intend to devote to research                 commitment of effort to research
     outlined in this guidance to its own                    projects. For example, it would be                     projects is the accurate and consistent
     particular circumstances.                               clearly improper for researchers in                    treatment of ‘‘institutional base salary’’
                                                             award applications to separately report                (IBS). IBS effectively serves as the
     II. Risk Areas
                                                             to three awarding agencies that they                   denominator in calculating the
        As with previous OIG CPGs, in this                   intend to spend 50 percent of their time               proportion of an employee’s activity
     section we highlight examples of risk                   on each of the three awards. Some                      that is allocated to particular Federal
     areas to assist institutions in developing              recent cases we have seen involved the                 awards. While IBS typically includes
     a compliance program. The                               ‘‘commitment of effort’’ by researchers                only nonclinical work of employees,
     identification of risk areas is an                      wherein the Government believed that                   certain institutions include clinical
     important aspect of formulating policies                the institution failed to account                      work based on a more expansive
     and procedures, developing a training                   properly for the clinical practice time of             definition of the ‘‘institution’’ for cost
     and education program, and conducting                   researchers, in addition to their                      reporting purposes. For those
     internal monitoring and audits. This                    academic and research time at the                      institutions, it is critical that the clinical
     section addresses a few examples of risk                institution. As an example, it would be                and nonclinical work activities of
     areas for recipients of PHS research                    improper to report to NIH or another                   researchers are reported so that salary is
     awards that have come to OIG’s                          awarding agency that 70 percent of a                   correctly allocated among Federal and
     attention: (1) Time and effort reporting,               researcher’s time would be spent on an                 non-Federal sources.8
     (2) properly allocating charges to award                award when 50 percent of the
     projects, and (3) reporting of financial                researcher’s time would be spent on                    B. Properly Allocating Charges to Award
     support from other sources. The areas                   clinical responsibilities.                             Projects
     identified in this section are in no way                   For colleges and universities, the                     Research institutions commonly
     intended to be exhaustive of all                        rules governing compensation for                       receive multiple awards for a single
     potential risk areas. Institutions may                  personal services, including payroll                   research area. It is essential that
     identify other areas based on their own                 distributions, are contained in OMB                    accounting systems properly separate
     operations and experiences. As an                       Circular A–21,5 Cost Principles for                    the amount of funding from each
     example, subrecipient monitoring may                    Educational Institutions, section J.10.6               funding source. Institutions must also
     be an important risk area for those                     Under section J.10 of OMB Circular A–                  be vigilant about clearly fraudulent
     institutions that rely heavily on their                 21, institutions must establish a system               practices such as principal investigators
     own grants and contracts to fulfill the                 of payroll distribution and must usually               on different projects banking or trading
     purposes of a PHS award.                                maintain ‘‘after-the-fact Activity                     award funds among themselves. The
                                                             Reports’’ or employ another method to                  failure to account accurately for charges
     A. Time and Effort Reporting
                                                             report accurately the distribution of                  to various award projects can result in
        One critical compliance issue is the                 activity of employees. (See especially,
     accurate reporting of research time and                                                                          7 The Public Health Service Grant Application,
     effort. Because the compensation for the                  5 For  State and local governments, the rules        PHS Form 398, is being replaced with an electronic
     personal services of researchers—both                   governing compensation for personal services is        application form, the standard form 424 R&R.
     direct salary and fringe benefits—is                    contained in OMB Circular A–87, Cost Principles        According to NIH, the new form will incorporate all
                                                             for State, Local and Indian Tribal Governments,        the policies and definitions currently contained in
     typically a major cost of a project, it is              Attachment B, § 11. For non-profit organizations, it   the Form 398.
     critical that the portion of the                        is contained in OMB Circular A–122, Cost                 8 NIH has recently expanded its guidelines

     researcher’s compensation for particular                Principles for Non-Profit Organizations, Attachment    addressing when institutions may include clinical
     research projects be accurately reported.               B, paragraph 7. For hospitals, the rules are           practice compensation as part of institutional base
                                                             contained in 45 CFR part 74, Appendix E,               salary. Among other tests, the compensation must
     One reason that we view time and effort                 Principles for Determining Costs Applicable to         be set by the institution, be paid through or at the
     reporting as a critical risk area is that               Research and Development under Grants and              direction of the institution, and be included and
     many researchers have multiple                          Contracts with Hospitals, § IX, paragraph B.7.         accounted for in the institution’s effort reporting
                                                                6 By regulation, OMB Circular A–21 and the other    and/or payroll distribution system. See Guidelines
     responsibilities—sometimes involving
                                                             cost principles are made applicable to recipients of   for Inclusion of Clinical Practice Compensation in
     teaching, research, and clinical work—                  Department awards. 45 CFR 74.27(a). The cost           Institutional Base Salary Charged to NIH Grants and
     that must be accurately measured and                    principles have also recently been codified in title   Contracts, http://grants.nih.gov/grants/guide/
     monitored. In the course of a                           2 of the CFR.                                          notice-files/NOT–OD–050061.html.



VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00054   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
     71316                      Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices

     significant disallowances or, in certain                to distribute funds to those projects                 III. Compliance Program Elements
     circumstances, could subject an                         most in need of support.
                                                                                                                   A. The Basic Compliance Elements
     institution to criminal or civil fraud
     investigations.                                         C. Reporting Financial Support From                      At a minimum, a comprehensive
        In one recent civil fraud action, an                 Other Sources                                         compliance program should include the
     institution settled allegations by the                                                                        following elements:
                                                                As with the proper reporting of time                  (1) The development and distribution
     Government that it made end-of-year                     and effort and the allocation of charges,
     transfers of direct costs on various                                                                          of written standards of conduct, as well
                                                             the reporting of financial support from               as written policies and procedures, that
     Federally funded research awards from                   other sources is critical for the awarding
     overspent accounts to underspent                                                                              reflect the institution’s commitment to
                                                             agency to understand the commitment                   compliance.
     accounts, with the purpose of
                                                             of resources by the grantee to a                         (2) The designation of a compliance
     maximizing its Federal reimbursement
                                                             particular project or award. Without                  officer and a compliance committee
     and, in some cases, avoiding the
                                                             complete and accurate information on                  charged with the responsibility for
     refunding of unused grant proceeds.
        The general principles governing the                 other funding sources, PHS may be                     developing, operating, and monitoring
     allocation of costs are found in the                    unable to determine whether a                         the compliance program, and with
     appropriate sets of cost principles, such               particular project should be funded and               authority to report directly to the head
     as OMB Circular A–21 for colleges and                   the amount of such funding. In some                   of the organization, such as the
     universities. Among those principles in                 cases, failure to identify other support              president and/or the board of regents in
     Circular A–21 is the rule that a ‘‘cost is              for a research project could cause PHS                the case of a university.
     allocable to a particular cost objective                to provide duplicate funding to the                      (3) The development and
     * * * if the goods or services involved                 project. At a minimum, information on                 implementation of regular, effective
     are chargeable or assignable to such cost               other support would allow PHS to use                  education and training programs for all
     objective in accordance with relative                   its limited resources on other worthy                 affected employees.
     benefits received or other equitable                    projects that might otherwise be left                    (4) The creation and maintenance of
     relationship.’’ Circular, § C.4.9                       unfunded.                                             an effective line of communication
     Additional guidance on the allocation of                                                                      between the compliance officer and all
                                                                For PHS awards, the reporting of
     costs may be found in the NIH Grants                                                                          employees, including a process (such as
                                                             other financial support is a required
     Policy Statement, Part II, Cost                                                                               a hotline or other reporting system) to
                                                             element of award applications and the
     Considerations, available at htttp://                                                                         receive complaints or questions that are
                                                             failure to provide this information                   addressed in a timely and meaningful
     grants1.nih.gov/grants/policy/nihgps.                   could, in certain, subject an institution
     Also, the Departmental Appeals Board                                                                          way, and the adoption of procedures to
                                                             to a criminal or civil fraud investigation.           protect the anonymity of complainants
     has jurisdiction over cost allocation and               Other funding support is required to be
     rate disputes, as well as more generally                                                                      and to protect whistleblowers from
                                                             reported as part of the application for               retaliation.
     over direct, discretionary grants,                      funding (PHS Form 398), the                              (5) The clear definition of roles and
     including biomedical research grants                    instructions for which state that the                 responsibilities within the institution’s
     from NIH. (The Board’s process is                       applicant organization must disclose all              organization and ensuring the effective
     described in 45 CFR part 16.) Several                   compensation and salary support. (See                 assignment of oversight responsibilities.
     Board decisions address the proper                      PHS 398 Rev. 9/2004, § III.H (‘‘Other                    (6) The use of audits and/or other risk
     allocation of costs by colleges and                     Support’’) available at http://                       evaluation techniques to monitor
     universities.10                                         www.grants.nih.gov/grants/funding/                    compliance and identify problem areas.
        As with other administrative                         phs398/PolAssurDef.doc.) Moreover, the                   (7) The enforcement of appropriate
     requirements governing Federal awards,                  face page of the PHS application                      disciplinary action against employees or
     the improper allocation of charges to                   includes a certification by both the                  contractors who have violated
     various sources is not a mere                                                                                 institutional policies, procedures, and/
                                                             Principal Investigator/Program Director
     ‘‘accounting problem,’’ in the sense that                                                                     or applicable Federal requirements for
                                                             and by the Applicant Organization that
     it has no real impact on the conduct of                                                                       the use of Federal research dollars, and
                                                             all statements in the application are
     science. On the contrary, the failure to                                                                         (8) The development of policies and
                                                             ‘‘true, complete, and accurate to the best
     allocate correctly charges—whether                                                                            procedures for the investigation of
                                                             of my knowledge’’ and that ‘‘false,
     because of poor record-keeping or as                                                                          identified instances of non-compliance
     part of an intent to deceive funding                    fictitious, or fraudulent statements or
                                                             claims could subject me to criminal,                  or misconduct. These should include
     sources—has the effect of drawing away                                                                        directions regarding the prompt and
     limited Federal research funds from                     civil, or administrative penalties.’’ (The
                                                             face page is available at http://                     proper response to detected offenses,
     projects for which they were intended                                                                         such as the initiation of appropriate
     and subverting the Government’s ability                 www.grants.nih.gov/grants/funding/
                                                             phs398/fp1.doc.) Additional guidance                  corrective action and preventive
        9 For State and local governments, a similar         for NIH grants is found in the NIH                    measures.
     principle governing the allocation of costs is          Grants Policy Statement, Part II, Just-in-            B. Written Policies and Procedures
     contained in OMB Circular A–87, Cost Principles         Time Procedures, available at http://
     for State, Local and Indian Tribal Governments,                                                                 In developing a compliance program,
                                                             grants1.nih.gov/grants/policy/nihgps.
     Attachment A, § C.3. For non-profit organizations,                                                            every institution should develop and
     it is contained at OMB Circular A–122, Cost                A problem related to the failure to                distribute written policies and
     Principles for Non-Profit Organizations, § A.4. For
     hospitals, the principle is contained in 45 CFR Part
                                                             accurately and completely report                      procedures addressing compliance with
     74, Appendix E, Principles for Determining Costs        support from other financial sources is               Federal award requirements. These
     Applicable to Research and Development under            the charging of both award funds and                  policies and procedures should be
     Grants and Contracts with Hospitals, § III, D.          Medicare and other health care insurers               developed under the direction and
        10 Board decisions may be found on the Board’s

     Web site at www.hhs.gov/dab/search.html, as well
                                                             for performing the same service. This is              supervision of the compliance officer,
     as with legal information services such as Westlaw      clearly improper and has subjected                    the compliance committee, and relevant
     and Lexis.                                              institutions to fraud investigations.                 institution officials. They should also be


VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00055   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
                                Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices                                                    71317

     reviewed at regular intervals to ensure                 C. Designation of a Compliance Officer                noncompliance received through the
     that they are current and relevant.                     and a Compliance Committee                            hotline (or other established reporting
       At a minimum, the policies and                                                                              mechanism) or otherwise brought to his
                                                             1. Compliance Officer
     procedures should be provided to all                                                                          or her attention (e.g., as a result of an
                                                                Every research institution should                  internal audit or by counsel who may
     faculty members and other employees
                                                             designate a compliance officer who will               have been notified of a potential
     who are affected by them, to students
                                                             have day-to-day responsibility for                    instance of noncompliance);
     who may be conducting research with                     overseeing and coordinating the                         • Independently investigating and
     Federal awards, and to any agents or                    compliance program. For smaller                       acting on matters related to compliance.
     contractors who may furnish services in                 institutions, the compliance officer                  To that end, the compliance officer
     connection with Federal research                        responsibilities might be added to other              should have the flexibility to design and
     awards. The policies and procedures                     management responsibilities, or, for                  coordinate internal investigations (e.g.,
     should be easily found and accessible,                  very large institutions, there could be               responding to reports of problems or
     such as, for example, on the institution’s              several compliance officers who would                 suspected violations) and any resulting
     Internet or intranet site. Since                        have responsibility for different major               corrective action (e.g., making necessary
     institutions also typically maintain                    activities of the institution. However,               improvements to policies and practices,
     policies and procedures governing other                 designating a compliance officer with                 and taking appropriate disciplinary
     compliance issues, including conflicts                  the appropriate level of authority is                 action) with particular departments or
     of interest, human subject research, and                critical to the success of the program.               institution activities;
     the maintenance and reporting of                        Optimally, the officer should report                    • Participating with counsel in the
     research data, they may choose to                       directly to the institution’s president               appropriate reporting of any self-
     compile these various policies and                      and should have direct access to the                  discovered violations of Federal
     procedures on a single Internet or                      board of regents or other governing                   requirements; and
     intranet site.                                          body, senior administration officials,                  • Continuing the momentum and, as
       In addition to a clear statement of                   and legal counsel. For very large                     appropriate, revising or expanding the
     detailed and substantive policies and                   institutions, if it is not possible to report         compliance program after the initial
     procedures, OIG recommends that                         directly to the president, the officer                years of implementation.11
     institutions that receive PHS research                  should report to the provost or official                The compliance officer must have the
     awards develop a general institutional                  with similar high-level responsibility for            authority to review all documents and
     statement of ethical and compliance                     the oversight of research administration.             other information relevant to
                                                             The compliance officer should have                    compliance activities. This review
     principles that will guide the
                                                             sufficient funding, resources, and staff              authority should enable the compliance
     institution’s operations. One common
                                                             to perform his or her responsibilities                officer to determine whether the
     expression of this statement of
                                                             fully.                                                institution is in compliance with PHS or
     principles is the code of conduct. The
                                                                The compliance officer’s primary                   other Federal program requirements.
     code should function in the same
                                                             responsibilities should include:                      Where appropriate, the compliance
     fashion as a constitution, i.e., as a
                                                                • Overseeing and monitoring                        officer should seek the advice of
     document that details the fundamental
                                                             implementation of the compliance                      competent legal counsel about these
     principles, values, and framework for
                                                             program;                                              matters.
     action within an organization. The code
     of conduct for research institutions                       • Reporting on a regular basis to the              2. Compliance Committee
     should articulate the institution’s                     board of regents, president, and
                                                             compliance committee (if applicable) on                  OIG recommends that a compliance
     expectations of commitment to                                                                                 committee be established to advise the
     compliance by management, employees,                    compliance matters and assisting these
                                                             individuals or groups to establish                    compliance officer and assist in the
     and agents, and should summarize the                                                                          implementation of the compliance
     broad ethical and legal principles under                methods to reduce the institution’s
                                                             vulnerability to fraud and abuse;                     program.12 If structured appropriately,
     which the institutions must operate.                                                                          the committee can provide the
     Unlike the more detailed policies and                      • Periodically revising the
                                                             compliance program, as appropriate, to                compliance officer with contacts in
     procedures, the code of conduct should                                                                        various parts of the institution and the
     be brief and cover general principles                   respond to changes in the institution’s
                                                             needs and applicable program                          names of individuals who possess
     applicable to all employees.                                                                                  subject matter expertise. If the
                                                             requirements, identified weakness in
       OIG strongly encourages the                           the compliance program, or identified
     participation and involvement, as                       systemic patterns of noncompliance;
                                                                                                                      11 There are many approaches the compliance

     appropriate, of senior management of                                                                          officer may enlist to maintain the vitality of the
                                                                • Developing, coordinating, and                    compliance program. Periodic on-site visits of
     the institution, such as the board of                   participating in a multifaceted                       offices, bulletins with compliance updates and
     regents and president, as well as other                 educational and training program that                 reminders, distribution of audiotapes, videotapes,
     personnel from various levels of the                    focuses on the elements of the                        CD ROMs, or computer notifications about different
     organizational structure, in the                                                                              risk areas, lectures at campus meetings, and
                                                             compliance program, and seeking to                    circulation of recent articles or publications
     development of all aspects of the                       ensure that all affected employees                    discussing fraud and abuse are some examples of
     compliance program, especially the                      understand and comply with pertinent                  approaches the compliance officer may employ.
     code of conduct. Management and                         Federal and State standards;                             12 The compliance committee benefits from

     employee involvement in this process                       • Developing policies and                          having the perspectives of individuals with varying
                                                                                                                   responsibilities and areas of knowledge in the
     communicates a strong and explicit                      procedures;                                           organization, such as operations, finance, audit,
     commitment by management to foster                         • Assisting the institution’s internal             human resources, and legal, as well as faculty
     compliance with applicable program                      or independent auditors in coordinating               members. The compliance officer should be an
     requirements. It also communicates the                  compliance reviews and monitoring                     integral member of the committee. All committee
                                                                                                                   members should have the requisite seniority and
     need for all employees to comply with                   activities;                                           comprehensive experience within their respective
     the organization’s code of conduct and                     • Reviewing and, where appropriate,                areas to recommend and implement any necessary
     policies and procedures.                                acting in response to reports of                      changes to policies and procedures.



VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00056   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
     71318                      Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices

     institution employs individuals who                     appropriate contractors, should receive               have changed their job responsibilities.
     already have responsibility for                         the general training. General training                However, follow-up training may be
     compliance in various subject areas, for                should include the contents of the                    provided in other formats, such as
     example biosafety or care and use of                    institution’s compliance program, such                through videotaped presentations or
     animals, these individuals would be                     as the role of the compliance officer and             web-based training in which
     obvious candidates for the compliance                   committee and the availability of an                  participants certify that they have
     committee.                                              anonymous complaint mechanism. It                     completed the training curriculum. If
       When developing an appropriate team                   should include both a description of the              videos or computer-based programs are
     of people to serve as the compliance                    many types of compliance issues that                  used for compliance training, OIG
     committee, the institution should also                  administrators, faculty and other                     suggests that the institution make a
     consider including individuals with a                   employees may need to address in the                  qualified individual available to field
     variety of skills and personality traits as             course of their careers, and the sources              questions from trainees.
     team members. The institution should                    of guidance in resolving those issues.                   The compliance officer should
     expect its compliance committee                            More specific training programs                    maintain records of all formal training
     members and compliance officer to                       would be designed for more specialized                undertaken by the institution as part of
     demonstrate integrity, good judgment,                   audiences. For example, administrative                the compliance program. This should
     assertiveness, and an approachable                      personnel who manage award funding                    include attendance logs, descriptions of
     demeanor, while eliciting the respect                   should receive detailed training on                   the training sessions, and copies of the
     and trust of employees. These                           Federal cost principles and grant                     material distributed at training sessions.
     interpersonal skills are as important as                administration regulations and policies.
                                                                                                                   Depending on need, an institution may
     the professional experience of the                      Employees who are involved with
                                                                                                                   require that employees receive a
     compliance officer and each member of                   clinical research should receive training
                                                                                                                   minimum number of educational hours
     the compliance committee. Examples of                   on the protection of human subjects, the
                                                                                                                   per year, as appropriate, as part of their
     individuals that the institution might                  Institutional Review Board process, and
                                                                                                                   employment responsibilities.
     consider as members of the compliance                   the responsible conduct of research.
     committee include institutional                         Administration officers and other key                    The institution needs to establish a
     ombudsman staff and alternative                         staff can assist in identifying additional            mechanism to ensure that employees
     dispute resolution staff.                               specialized areas for training. Areas of              receive the training they need. Training
       Once an institution chooses the                       training may also be identified through               could be made a condition of continued
     members of the compliance committee,                    internal audits and monitoring and from               employment and failure to comply with
     the institution needs to train these                    a review of any past compliance                       training requirements could result in
     individuals on the policies and                         problems.                                             disciplinary action. Adherence to the
     procedures of the compliance program,                      Training instructors may come from                 training requirements as well as other
     as well as how to discharge their duties.               outside or inside the organization, but               provisions of the compliance program
     In essence, the compliance committee                    must be qualified to present the subject              should be a factor in the annual
     should function as an extension of the                  matter involved and sufficiently                      evaluation of each employee.
     compliance officer and provide the                      experienced in the issues presented to                E. Developing Effective Lines of
     organization with increased oversight.                  adequately field questions and                        Communication
                                                             coordinate discussions among those
     D. Conducting Effective Training                                                                              1. Access to Supervisors and/or the
                                                             being trained. Ideally, training
        The training of appropriate                          instructors should be available for                   Compliance Officer
     administrators, both at the institution                 follow-up questions after the formal
     and department levels, faculty                          training session has been conducted.                     For a compliance program to work,
     (including principal investigators), other                 General and specific training sessions             employees must be able to ask questions
     staff, and contractors on award                         should be provided both upon initial                  and report problems. University
     administration and other program                        employment with the institution as well               officials, department chairpersons or
     requirements is an important element of                 as on some periodic schedule,                         other supervisors play a key role in
     an effective compliance program. The                    depending on the needs of the audience.               responding to employee concerns and it
     focus of the training and its level of                  Specialized training should be provided               is appropriate that they serve as a first
     detail will depend on the particular                    on a more frequent basis, perhaps                     line of communication. Research
     needs of the institution. In addition to                annually or more frequently.                          institutions should consider the
     training sessions, the institution may                     One technique to consider for training             adoption of open-door policies to foster
     also undertake other educational efforts,               is to report actual examples of                       dialogue between management and
     such as disseminating publications that                 compliance problems at the institution                employees. To encourage
     explain specific requirements in a                      or at other institutions, typically                   communications, confidentiality and
     practical manner. In developing training                without any identifying information.                  nonretaliation policies should also be
     programs, it may be helpful to involve                  This may serve to educate staff on these              developed and distributed to all
     faculty, such as principal investigators,               issues the institution considers                      employees.
     who will be receiving the training. This                important, how the compliance process                    Open lines of communication
     will allow these individuals to offer                   works, and the actions that can be taken              between the compliance officer and
     their insights, encourage more                          against individuals for more serious                  employees are equally important to the
     enthusiastic participation in the training              problems.                                             successful implementation of a
     sessions, and promote buy-in with the                      An institution may wish to vary the                compliance program. In addition to
     compliance program.                                     manner of training, both for general and              serving as a contact point for reporting
        An institution should provide general                specific training. In-person training                 problems and initiating appropriate
     training sessions that cover such issues                sessions may be more effective than                   responsive action, the compliance
     as ethical standards and the institution’s              other types of training and are usually               officer should be viewed as someone to
     commitment to compliance issues. All                    important for initial training sessions for           whom personnel can go for clarification
     employees, and where feasible and                       new employees or when employees                       on the institution’s policies.


VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00057   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
                                Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices                                             71319

     2. Hotlines and Other Forms of                          typically also have an annual financial               to perform regular compliance reviews.
     Communication                                           statement audit, often conducted by the               The reviews should focus on those
        OIG encourages the use of hotlines, e-               same firm that conducts its single audit,             divisions or departments of the
     mails, newsletters, suggestion boxes,                   for the purpose of expressing an opinion              institution that have substantive
     and other forms of information                          as to the fairness of the information                 involvement with or impact on Federal
     exchange to maintain open lines of                      contained in the financial statements for             programs and on the risk areas
     communication. In addition, an                          the institution.                                      identified in this guidance. The reviews
     effective employee exit interview                          In addition to the mandated single                 should also evaluate the policies and
     program could be designed to solicit                    audit and the financial statement audit,              procedures regarding other areas of
     information from departing employees                    institutions should consider having                   concern identified by OIG and Federal
     regarding potential misconduct and                      additional performance audits, focused                and State law enforcement agencies.
     suspected violations of the institution’s               on particular areas of activity. Internal             Specifically, the reviews should
     policies and procedures. Institution                    auditors may already be performing                    evaluate whether: (1) The institution has
     officials may also identify areas of risk               such audits, although an external
                                                                                                                   policies covering the identified risk
     or concern through periodic surveys.                    auditor may in some cases be able to
                                                                                                                   areas, (2) the policies were implemented
        If an institution establishes a hotline              provide a greater level of independence
                                                                                                                   and communicated, and (3) the policies
     or other reporting mechanism,                           in this work or should be considered
                                                             when there is a particular problem or                 were followed.
     information regarding how to access the
     reporting mechanism should be made                      risk area that needs attention. Whether               G. Enforcing Standards Through Well-
     readily available to all employees and                  audits of compliance with Federal                     Publicized Disciplinary Guidelines
     contractors by including that                           program requirements are performed by
     information in the code of conduct or by                internal or external auditors, they                      An effective compliance program
     circulating the information (e.g., by                   should follow generally accepted                      should include clear and specific
     publishing the hotline number or e-mail                 Government auditing standards,                        disciplinary policies that set out the
     address on wallet cards) or                             published by the Government                           consequences of violating Federal or
     conspicuously posting the information                   Accountability Office as ‘‘Government                 State requirements, the institution’s
     in common work areas.13 Employees                       Auditing Standards,’’ known as the                    code of conduct, or its policies and
     should be permitted to report matters on                ‘‘Yellow Book.’’                                      procedures. Any research institution
     an anonymous basis.                                        Institutions should consider                       should consistently undertake
        For the reporting mechanism to                       conducting risk assessments to                        appropriate disciplinary action across
     maintain credibility, it is important that              determine where to devote audit                       the institution for the disciplinary
     the institution’s review of the                         resources, such as for separate                       policy to have the required deterrent
     allegations be meaningful and that                      performance audits, and may wish to                   effect. Intentional and material
     prompt and appropriate followup be                      consider the risk areas we identified                 noncompliance should not be tolerated
     conducted. Reported matters that                        above in section II. Risk assessments                 and should subject transgressors to
     suggest substantial violations of Federal               could be coordinated by the compliance                significant sanctions. Such sanctions
     program requirements should be                          officer. The institution’s disclosure                 could range from oral warnings to
     documented and investigated promptly                    statement under OMB Circular A–21—                    suspension, termination or other
     to determine their veracity and the                     if it is required to submit one—may                   sanctions, as appropriate. Disciplinary
     scope and cause of any underlying                       already include identification of risk                action also may be appropriate when a
     problem. The compliance officer should                  areas. The A–133 audit itself may also                responsible employee’s failure to detect
     maintain a thorough record of such                      identify risk areas or the program
                                                                                                                   a violation is attributable to his or her
     complaints as well as any investigation,                agencies may identify risk areas based
                                                                                                                   negligence or reckless conduct. Each
     its results, and any remedial or                        on their review of the A–133 audit.
                                                                An effective compliance program                    situation must be considered on a case-
     disciplinary action taken. The                                                                                by-case basis, taking into account all
                                                             should also incorporate thorough
     institution may wish to provide such                                                                          relevant factors, to determine the
                                                             monitoring of its implementation and an
     information, redacted of individual                                                                           appropriate response.
                                                             ongoing evaluation process. The
     identifiers, to the institution’s senior
                                                             compliance officer should document                    H. Responding to Detected Problems
     management, such as the board of                        this ongoing monitoring, including
     regents and the president, and to the                                                                         and Developing Corrective Action
                                                             reports of suspected noncompliance,                   Initiatives
     compliance committee.                                   and provide these assessments to the
     F. Auditing and Monitoring                              institution’s senior management and the               1. Violations and Investigations
        Auditing of an institution’s operations              compliance committee. The extent and
                                                             frequency of the compliance audits may                  Violation of an institution’s
     and activities is a critical internal                                                                         compliance program, failure to comply
     control mechanism. Under the Single                     differ depending on variables such as
                                                             the institution’s available resources,                with applicable Federal or State law,
     Audit Act of 1984 (Pub. L. 98–502), as                                                                        and other types of misconduct threaten
     amended, all institutions that expend                   prior history of noncompliance, and the
                                                             risk factors particular to the institution.           the institution’s reputation in the
     $500,000 or more in Federal assistance                                                                        scientific and research community.
     are required to have a single audit of the              The nature of the reviews may also vary
                                                             and could include a prospective                       Consequently, upon receipt of
     ‘‘non-Federal entity,’’ which must be                                                                         reasonable indications of suspected
     conducted in accordance with generally                  systemic review of the institution’s
                                                             processes, protocols, and practices, or a             noncompliance, it is important that the
     accepted Government auditing                                                                                  compliance officer or other officials
     standards. (31 U.S.C. 7502, OMB                         retrospective review of actual practices
                                                             in a particular area.                                 immediately investigate the allegations
     Circular A–133.) Major institutions                                                                           to determine whether a material
                                                                Although many assessment
       13 Institutions might also choose to post in a        techniques are available, it is often                 violation of applicable law or the
     prominent area the HHS–OIG Hotline telephone            effective to engage internal or external              requirements of the compliance program
     number, 1–800–447–8477 (1–800–HHS–TIPS).                evaluators who have relevant expertise                has occurred and, if so, take decisive


VerDate Aug<31>2005   15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00058   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
     71320                       Federal Register / Vol. 70, No. 227 / Monday, November 28, 2005 / Notices

     steps to correct the problem.14 The exact                reported violation. Once the                          program. While the guidance focuses on
     nature and level of thoroughness of the                  investigation is completed, and                       award administration, adopting the
     investigation will vary according to the                 especially if the investigation ultimately            principles and standards in the
     circumstances, but the review should be                  reveals that criminal, civil or                       guidance would benefit other activities
     detailed enough to identify the cause of                 administrative violations have occurred,              that are subject to Government
     the problem. As appropriate, the                         the compliance officer should notify the              regulation, including human subject
     investigation may include a corrective                   appropriate authorities of the outcome                research, ethics, and the responsible
     action plan, an assessment of internal                   of the investigation.                                 conduct of science.
     controls, a report and repayment to the
                                                              I. Establishing Roles and                               Dated: November 21, 2005.
     Government, and/or a referral to law
                                                              Responsibilities and Assigning
     enforcement authorities or regulatory                                                                          Daniel R. Levinson,
                                                              Oversight Responsibility
     bodies.                                                                                                        Inspector General.
                                                                 It is especially important that roles
     2. Reporting                                             and responsibilities regarding the use of             Appendix A
        Where the compliance officer,                         PHS research awards be clearly defined                  Association of American Medical Colleges,
     compliance committee, or member of                       and understood. Defining roles and                    Protecting Subjects, Preserving Trust,
     the institution’s administration                         responsibilities promotes accountability              Promoting Progress: Policy and Guidelines
     discovers credible evidence of                           and is essential to the overall internal              for the Oversight of Individual Financial
     misconduct from any source and, after                    control structure of the institution.                 Interests in Human Subjects Research
     a reasonable inquiry, believes that the                     Institutions should clearly delineate              (December 2001).
     conduct may violate criminal, civil, or                  the responsibilities of all persons                     Association of American Medical Colleges,
     administrative law, the institution                      involved with the conduct of federally                Protecting Subjects, Preserving Trust,
     should promptly report the existence of                  supported research, including both                    Promoting Progress: Principles and
     misconduct to the appropriate                            administration or department personnel                Recommendations for the Oversight of
     authorities within a reasonable period,                  with oversight responsibility as well as              Individual Financial Interests in Human
     but not more than 60 days, after                         principal investigators and other                     Subjects Research II (October 2002).
     determining that there is credible                       personnel who are engaged in research.                  Council on Governmental Relations,
     evidence of a violation. This includes                      Under PHS regulations, it is typically             Managing Externally Funded Research
     the reporting of criminal or civil                       the institution itself that qualifies as the          Programs: A Guide to Effective Management
     misconduct to Federal and State                          ‘‘responsible legal entity’’ for grant                Practices (June 2005), available at http://
     authorities,15 or, for example, in the                   compliance purposes. (See 42 CFR 52.2                 www.cogr.edu/docs.
     case of research misconduct to the                       (definition of ‘‘Grantee’’).) Clearly                   Grant, Geoffrey, et al., Creating Effective
     appropriate institutional body or to the                 defining roles and responsibilities can               Research Compliance Programs in Academic
     Department’s Office of Research                          assist institutions in fulfilling their legal         Institutions, 74 American Medicine 9
     Integrity. Prompt voluntary reporting                    responsibility to comply with                         (September 1999).
     will demonstrate the institution’s good                  Department requirements, removing any                   Kenney, Jr., Robert J., ‘‘Dual
     faith and willingness to work with                       uncertainty as to the precise                         Compensation’’ and ‘‘Separate
     governmental authorities to correct and                  responsibility of all individuals                     Compensation’’ Arrangements in the Wake of
     remedy the problem. In addition,                         involved in the research enterprise. It               the Northwestern University Settlement, 14
     reporting such conduct may be                            can also assist individuals in defending              Research Management Review 1 (Spring
     considered a mitigating factor by the                    against allegations that they recklessly              2004).
     responsible law enforcement or                           disregarded award requirements.                         Murphy, Diane E., The Federal Sentencing
     regulatory office, including OIG.                           Roles and responsibilities for each                Guidelines for Organizations: A Decade of
        When reporting to the Government,                     position should be clearly                            Promoting Compliance and Ethics, 87 Iowa
     an institution should provide all                        communicated and accessible.                          L. Rev. 697 (January 2002).
     information relevant to the alleged                      Including roles and responsibilities in                 National Council of University Research
     violation of applicable Federal or State                 the institution’s written policies and                Administrators (NCURA), A Guide to
     law(s) and the potential financial or                    procedures and in its formal training                 Managing Federal Grants for Colleges and
     other impact of the alleged violation.                   and education program could                           Universities, available at www.ncura.edu/
     The compliance officer, under advice of                  accomplish this objective.                            publications/aispub.htm.
     counsel and with guidance from the                                                                               National Institutes of Health, Office of
                                                              IV. Conclusion
     governmental authorities, could be                                                                             Extramural Research, Proactive Compliance
     requested to continue to investigate the                    The growth in Federal funding for                  Site Visits FY 2000–FY 2002: A
                                                              scientific research over the past decade              Compendium of Findings and Observations
       14 Instances of noncompliance must be                  has prompted a need for more effective                (2002).
     determined on a case-by-case basis. The existence        compliance by recipient institutions.                   Steinberg, Nisan A., Regulation of
     or amount of a monetary loss to PHS or other             Many institutions have recognized this                Scientific Misconduct in Federally Funded
     Federal programs is not solely determinative of          need and have developed formal                        Research, 10 S. Cal. Interdisc. L.J. 39 (Fall
     whether the conduct should be investigated and
     reported to governmental authorities. In fact, there     compliance programs. We believe that                  2000).
     may be instances where there is no readily               all research institutions would benefit                 Walsh, Barbara E., et al., The Compliance
     identifiable monetary loss, but corrective actions       from compliance programs that, if                     Umbrella, Business Officer 18 (January 2000).
     are still necessary to protect the integrity of the      effectively implemented, would foster a                 Walsh, Barbara E., et al., A Model
     program.
       15 Appropriate Federal authorities include OIG,        culture of compliance that begins at the              Operating Process, Business Officer 42
     the Criminal and Civil Divisions of the Department       administration or management level and                (March 2000).
     of Justice, the U.S. Attorney in the institution’s       permeates throughout the organization.                [FR Doc. E5–6548 Filed 11–25–05; 8:45 am]
     district, and the Federal Bureau of Investigation.       The purpose of this voluntary guidance
     State authorities may include the appropriate                                                                  BILLING CODE 4152–01–P
     division of the State Attorney General’s office or, if
                                                              is to offer a ‘‘checklist’’ of items that we
     separate from the Attorney General, the District         believe is critical for refining or
     Attorney or other criminal prosecutive office.           developing an effective compliance


VerDate Aug<31>2005    15:28 Nov 25, 2005   Jkt 208001   PO 00000   Frm 00059   Fmt 4703   Sfmt 4703   E:\FR\FM\28NON1.SGM   28NON1
